TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         Field Collection Could Work Cases
                          With Better Collection Potential



                                      September 12, 2014

                              Reference Number: 2014-30-068




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                     HIGHLIGHTS


FIELD COLLECTION COULD WORK                                Information systems do not track case
CASES WITH BETTER COLLECTION                                source data, so management cannot fully
POTENTIAL                                                   assess the effectiveness of field case
                                                            selection criteria.
                                                        
Highlights                                                  Case selection criteria do not consider the
                                                            age of associated delinquencies, so many
                                                            assigned cases include older delinquencies
Final Report issued on                                      that will not likely be collected.
September 12, 2014
                                                           Case selection criteria do not consider the
Highlights of Reference Number: 2014-30-068                 financial condition (such as income) of the
to the Internal Revenue Service Commissioner                delinquent taxpayers, so many of the
for the Small Business/Self-Employed Division.              assigned cases involve taxpayers with no
                                                            ability to make payments.
IMPACT ON TAXPAYERS
                                                           Case selection criteria do not consider
The IRS has a large inventory of taxpayer                   unsuccessful prior attempts to contact or
delinquent accounts but limited resources to                locate the taxpayers.
collect the unpaid taxes. If sufficient steps are
not taken to make the most effective use of             Furthermore, many of the cases are older with
collection resources, it can have a substantial         less collection potential because they were first
impact on the amount of Federal taxes that              routed to the Automated Collection System but
remain uncollected.                                     were not resolved before assignment to the field.

WHY TIGTA DID THE AUDIT                                 Management has begun some initiatives
                                                        intended to improve the workload selection
While the Collection Field function (field) collects    process. While these initiatives could provide
billions of dollars from delinquent taxpayers,          benefits, TIGTA believes that further action is
resources have declined and many balance due            warranted.
modules have been closed as currently not
collectible. TIGTA performed this audit to              WHAT TIGTA RECOMMENDED
determine whether the IRS’s workload                    TIGTA recommended that the IRS:
identification, selection, and assignment               1) reexamine the field case selection criteria and
practices ensure that the cases with the greatest       strategy, 2) ensure that field personnel are
collection potential are worked in the field.           aware of the new strategy, 3) establish a method
WHAT TIGTA FOUND                                        to measure the effectiveness of the field case
                                                        selection criteria, and 4) conduct a study of the
The field workload selection process is not             cases routed to the Automated Collection
designed to ensure that cases with the highest          System to determine whether there are certain
collection potential are identified, selected, and      types of cases that should instead be routed
assigned to be worked. In Fiscal Year 2013,             directly to the queue or the field.
40 percent of the taxpayer delinquent accounts
closed by the field were written off as currently       In their response to the report, IRS officials
not collectible. The amount of delinquencies            generally agreed with our recommendations.
written off that year totaled $16.1 billion, which      The IRS plans to incorporate their corrective
was over five times as much as the amount               actions as part of a new concept of operations in
collected by the field ($3.1 billion). There are        the creation of a single Collection organization
several contributing factors limiting the               as part of a realignment of IRS compliance
effectiveness of the IRS’s collection efforts:          programs. Improving case selection criteria will
                                                        need to be a key component of its new concept
   The IRS does not measure productivity or            of operations to address the intent of TIGTA’s
    establish specific goals to evaluate case           recommendation.
    selection criteria.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 12, 2014


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Field Collection Could Work Cases With Better
                             Collection Potential (Audit # 201230019)

 This report presents the results of our review to determine whether the Internal Revenue
 Service’s (IRS) workload identification, selection, and assignment practices are ensuring that the
 cases with the greatest collection potential are worked in the Collection Field function. The audit
 is included in our Fiscal Year 2014 Annual Audit Plan and addresses the major management
 challenge of Tax Compliance Initiatives.
 IRS management expressed concerns regarding our sample methodology because the sample did
 not include cases resolved in the Automated Collection System (ACS). However, the scope of
 this audit focused on cases assigned and closed by Field Collection, not the ACS. ACS
 inventory management is the focus of a separate audit. Management’s complete response to the
 draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations.
 If you have any questions, please contact me or Bryce Kisler, Acting Assistant Inspector General
 for Audit (Compliance and Enforcement Operations).
                                                Field Collection Could Work Cases
                                                 With Better Collection Potential




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Workload Selection Process for Field Collection
          Cases Needs to Be Improved ........................................................................ Page 5
          More Consideration of Collection Potential Should Be
          Given When Identifying and Selecting Field Collection
          Case Inventory .............................................................................................. Page 7
                    Recommendations 1 through 3:......................................... Page 14

          Many Cases Closed by Field Collection Were First
          Routed and Aged in the Automated Collection System
          or the Queue .................................................................................................. Page 15
                    Recommendation 4:........................................................ Page 18


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 19
          Appendix II – Major Contributors to This Report ........................................ Page 23
          Appendix III – Report Distribution List ....................................................... Page 24
          Appendix IV – Analysis of the Collection Queue Inventory ........................ Page 25
          Appendix V – Glossary of Terms ................................................................. Page 32
          Appendix VI – Management’s Response to the Draft Report ...................... Page 35
             Field Collection Could Work Cases
              With Better Collection Potential




              Abbreviations

ACS     Automated Collection System
CNC     Currently Not Collectible
FY      Fiscal Year
ICS     Integrated Collection System
IDS     Inventory Delivery System
IRS     Internal Revenue Service
RO      Revenue Officer
ROTER   Record of Tax Enforcement Results
TDA     Taxpayer Delinquent Account
TDI     Taxpayer Delinquency Investigation
TIGTA   Treasury Inspector General for Tax Administration
                                          Field Collection Could Work Cases
                                           With Better Collection Potential




                                              Background

The Internal Revenue Service’s (IRS) Collection function has the primary responsibility for
collecting delinquent taxes and tax returns while ensuring that taxpayer rights are protected.
Specifically, the mission1 of the IRS Collection function is:
         To collect delinquent taxes and secure delinquent tax returns through the fair and
         equitable application of the tax laws, including the use of enforcement tools when
         appropriate, provide education to customers to enable future compliance, and
         thereby protect and promote public confidence in the American tax system.
This is a significant operation within the IRS because of the extent of noncompliance in both
delinquent tax liabilities and delinquent tax returns. The IRS estimates that the annual Tax Gap2
($450 billion) includes $46 billion in delinquent tax liabilities and $28 billion in unfiled tax
returns.3
The IRS uses a three-phased approach for collecting unpaid tax liabilities until they are either
fully paid, determined to be uncollectible, or otherwise resolved:
        Notice Stream: The IRS sends a series of balance due notices to the taxpayer to prompt
         a payment by the taxpayer or a reply if the taxpayer disagrees with the balance due or is
         not able to pay the delinquency.
        Telephone Contact (Automated Collection System (ACS)): IRS employees attempt to
         make telephone contact with the taxpayer to prompt a payment or take enforcement
         action that may include levying financial assets or filing a lien against the taxpayer’s
         property.
        In-Person Contact (Collection Field function (hereafter referred to as the field)):
         Revenue officers (RO) contact the taxpayer to prompt a payment or take enforcement
         action, including levies, liens, and seizures of taxpayer property.




1
  As of November 2013.
2
  See Appendix V for a glossary of terms.
3
  The Tax Gap is the difference between what taxpayers should have paid and what they timely paid. The largest
portion ($376 billion) of the Tax Gap is based on taxpayers underreporting taxes. A smaller portion ($46 billion) is
based on taxpayers not fully paying their tax liabilities. The final portion ($28 billion) is based on those taxpayers
not filing tax returns. These updated Tax Gap figures were reported by the IRS in January 2012 and represent Tax
Year 2006 tax return data.

                                                                                                               Page 1
                                          Field Collection Could Work Cases
                                           With Better Collection Potential



The three-phased approach starts with a number of automatically generated balance due notices
(notice stream). If the taxpayer is not able to pay the delinquency or does not respond to the
notices, the IRS issues a Taxpayer Delinquent Account (TDA) to the Collection Queue (hereafter
referred to as the queue), the ACS, or directly to the field to collect the balances due. If there are
insufficient resources to work the TDAs, the cases are either shelved4 or transferred to the queue5
and not worked.
The IRS uses the Inventory Delivery System (IDS) to systemically evaluate a collection case and
determine where it should be worked. The IDS uses consolidated decision analytics,
risked-based collection criteria, and established business rules to route cases to the ACS, the
queue, or directly to the field. Because the IDS operates systemically, it saves resources by
conducting the following actions:
        Perfects casework by using research services to obtain missing taxpayer information
         needed for case resolution.
        Analyzes, classifies, and directs perfected cases to the collection operation that is best
         suited to work that particular type of inventory.
        Closes cases and removes them from the active inventory if the cases do not meet the
         criteria to be assigned to a collection operation.
In addition to these actions, the IDS computes a predictive score for each case. The predictive
scores are then used to assign a predictive code to the case. Currently, data associated with the
predictive score are generally used only in prioritizing ACS cases.6 The IDS also identifies
accelerated high-risk cases for direct assignment to the field (thereby bypassing both the ACS
and the queue). Most cases that are assigned to the field
initially go to the queue (to await assignment to the field).         IRS guidelines and a
For those cases routed to the queue and the field, IRS                        rules-based systemic process
                                                                              are used to determine the best
management uses the ENTITY Case Management                                        place to send TDAs for
System (hereafter referred to as the ENTITY system) to                                  collection.
control the cases. The ENTITY system receives data
from the:
        Integrated Collection System (ICS) for open, closed, and “return to queue” cases.
        Delinquent Inventory Account List for queue cases.
        Automated Lien System for lien information.


4
  Cases that have been taken out of the collection inventory because they are of lower priority than other available
inventory.
5
  Appendix IV provides more details related to the Collection Queue inventory.
6
  The IDS predictive score for cases with delinquent liabilities of $1 million or more is used to prioritize field cases.

                                                                                                                 Page 2
                                   Field Collection Could Work Cases
                                    With Better Collection Potential



While cases are in the queue, the ENTITY system applies risk rules to each case (on a weekly
basis) to determine its risk level. The system prioritizes the cases assigned to the queue and the
field based on the risk level established by the ENTITY risk rules.
In addition, the ENTITY system displays data from the ICS and the queue for case management,
reports compilation, and management information. The ENTITY system has the capability to
allow area and territory managers to monitor key business indicators for collection cases and
generate reports at the individual, group, territory, area, and headquarters levels.
This review was performed at the IRS National Headquarters in Washington, D.C., in the
Small Business/Self-Employed Division’s Enterprise Collection Strategy office during the period
August 2012 through March 2014. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                             Page 3
                                    Field Collection Could Work Cases
                                     With Better Collection Potential




                                  Results of Review

With a significant growth in delinquent accounts and a reduction in the number of employees, it
is essential that the field inventory selection process identifies the cases that have the highest risk
and potential for collection. This requires IRS officials to make decisions about how to ensure
that the cases in the queue with the best collection potential are identified, selected, and assigned
to be worked. However, the field inventory processes are not designed to do this.
In addition, management information systems do not provide complete information that would
allow Collection function management to adequately assess the effectiveness of field case
selection criteria. For example, although the ENTITY system allows group managers some
flexibility when selecting and assigning cases to ROs, it does not track a source code that could
be used to identify when this flexibility is used. Similarly, the system does not identify cases
that managers assigned based on the ENTITY risk level. Such information would be helpful in
determining correlations between risk levels and revenue and could be used to help improve
selection criteria.
Compounding these challenges, the field selection criteria do not consider some key information
that could be used to improve the probability that assigned cases will result in revenue.
Although the dollar value and age of the current liability are considered, the ENTITY risk rules
do not consider the age or status of older liabilities for that taxpayer. Such delinquencies could
be an indication that the taxpayer does not have the ability to pay. In addition, the field selection
criteria do not consider the financial condition of the taxpayer, such as whether or not the
taxpayer has an income source or assets. Furthermore, the ENTITY risk rules do not consider
any unsuccessful prior attempts to contact or locate the taxpayer. As a result, assigned cases
often involve taxpayers who do not have the ability to make payments or taxpayers who cannot
be contacted or located.
In addition, many cases that are initially assigned to the ACS are not resolved and are ultimately
assigned to the field after they have aged in the ACS. This practice potentially reduces the
likelihood that revenue will be collected.
The combination of these factors has a direct impact on the IRS’s ability to reduce the Tax Gap
and emphasizes the need for proper inventory management and the importance of identifying
productive cases to work. IRS officials need to ensure that the delinquent accounts in the queue
with the most collection potential are identified, selected, and assigned to the field while
balancing the need to protect taxpayers’ rights and minimize taxpayer burden.




                                                                                                Page 4
                                        Field Collection Could Work Cases
                                         With Better Collection Potential



The Workload Selection Process for Field Collection Cases Needs to
Be Improved
The IRS faces difficult challenges when collecting the billions of dollars in unpaid taxes owed by
delinquent taxpayers. Between Fiscal Years (FY) 2010 and 2013, the IRS’s budget was reduced
by approximately 8 percent, to $11.2 billion (after sequestration). This correlated to a 17 percent
reduction in the number of ROs working inventory (671 fewer ROs). There has been a
13 percent reduction in overall enforcement revenue collected ($7.4 billion less). At the same
time, delinquent liabilities have grown considerably. With declining resources, many of the
cases are unlikely to be worked by IRS employees. Specifically, since the end of FY 2010:
       The number of TDAs in the queue has decreased by 10 percent, from 3.3 million to
        3.0 million, although the dollar value has increased by 8 percent, from $46.2 billion in
        delinquencies to $49.9 billion in delinquencies. In addition, 4.1 million TDAs, involving
        $33.7 billion, were removed from inventory (shelved).
       Over 80 percent of the modules in the queue have aged four years or longer. Collection
        potential drops as the cases become older, especially if taxpayers incur additional
        delinquencies from different tax periods.
       The average number of cases assigned to each RO has been reduced to 85 percent of
        former levels, and the time permitted to take certain actions was extended from 30 days
        to 45 days, which potentially slows inventory turnover.7
The IRS assigns its highest-risk and most complex collection cases to the field. Field personnel
have unique skills that enable them to work such cases; however, because they are
labor-intensive, the cost associated with working these cases is higher than in other collection
operations. To achieve the best use of its resources, the IRS needs to ensure that field personnel
are assigned the most productive queue cases from which to collect delinquent taxes.
During FY 2013, 610,151 (40 percent) of the 1,507,700 TDAs closed by the field were written
off as currently not collectible (CNC) and were no longer being actively worked. More
specifically, 435,790 (71 percent) of the 610,151 TDA modules were closed as CNC because the
taxpayer did not have the ability to pay, while 116,198 (19 percent) were closed as CNC because
the RO could not contact or locate the taxpayer.8 Since FY 2008, the percentage of TDAs closed
as CNC by the field has remained at 38 percent or higher. Figure 1 shows the gap between field
CNC closures and dollars collected between FYs 2008 and 2013.



7
  Treasury Inspector General for Tax Administration (TIGTA), Ref. No. 2013-30-043, Oversight of Revenue Officer
Case Actions Can Be Improved (May 2013).
8
  The remaining 10 percent were closed as CNC for various other reasons, such as the death of an individual with no
collection potential from the decedent/decedent estate.

                                                                                                           Page 5
                                          Field Collection Could Work Cases
                                           With Better Collection Potential



        Figure 1: Field Collections and CNC Closures for FYs 2008 Through 2013




    Source: TIGTA analysis of IRS Collection Activity Reports for FYs 2008 through 2013.

During FY 2013, the dollar value of the tax liabilities closed by the field as CNC ($16.1 billion)
was over five times as much as what was collected ($3.1 billion). Over 60 percent of the
$16.1 billion were closed as CNC because the IRS determined that the taxpayers did not have the
ability to pay.
A recent IRS study9 concluded that there could be some benefits from working cases that are
closed as CNC. Specifically, the study found that cases worked by ROs and closed as CNC
often resulted in more revenue and better taxpayer compliance than cases that were not worked
at all. However, the study only compared working cases with not working cases. It did not
compare the benefits of working different types of cases. Specifically, it did not compare
revenue or future compliance of working CNC cases with other cases that were also actually
worked but were closed as fully paid or with an installment agreement. Furthermore,
approximately 32 percent of the CNC dollars were closed because the RO could not contact or
locate the taxpayers. Overall, field personnel could be spending more time on queue cases that
result in collecting revenue if the workload selection process was improved.




9
 Internal Revenue Service Study, Uncollectible vs. Unproductive, Compliance Impact of Working Collection Cases
That Are Ultimately Not Fully Collectible, June 19, 2014, IRS Research Conference.

                                                                                                       Page 6
                                         Field Collection Could Work Cases
                                          With Better Collection Potential



More Consideration of Collection Potential Should Be Given When
Identifying and Selecting Field Collection Case Inventory
IRS collection program procedures require that collection inventory selection systems deliver
current and potentially collectible inventory to the field. However, there is no feedback system
alerting management on whether this occurs since the probability that revenue will be collected
is not fully considered when selecting inventory. Without this consideration, a large percentage
of cases that were assigned to the field involved taxpayers who did not have the ability to pay or
could not be contacted or located.

The IRS has not established quantifiable goals for its case selection criteria
The enactment of the IRS Restructuring and Reform Act of 199810 ushered in dramatic changes
in tax law as well as in the structure and functioning of the IRS. The changes affecting the IRS
focused mainly on improving customer service and expanding taxpayer rights, and they required
the IRS to incorporate many new or modified taxpayer rights provisions into its collection work
processes. However, the law also required the IRS to establish new administrative review and
approval requirements.
Specifically, the law codified several taxpayer rights that the IRS needed to protect while
carrying out its enforcement activities. The law also provided that employees could be removed
if they willfully disregarded a taxpayer’s rights. These provisions resulted in a significant
reduction in the Collection function’s use of enforcement actions (liens, levies, and seizures) for
a number of years. While a balanced focus on customer service and taxpayer rights is
appropriate, it is also important for the Collection function to remain focused on its mission of
collecting revenue. ROs should focus on the goal of bringing taxpayers into compliance, which
includes collecting revenue, provided that they also comply with IRS policies and procedures
that protect taxpayer rights. Assigning queue cases with collection potential helps ROs achieve
this goal.
Collection function management advised us that they have not established criteria that use
revenue due to concerns about the prohibition on the use of records of tax enforcement results
(ROTER) to evaluate employee performance. According to the IRS’s Internal Revenue
Manual,11 ROTERs are data, statistics, and compilations of information or other numerical or
quantitative records of the tax enforcement results reached in one or more cases. Using dollars
collected on closed cases to evaluate ROs is considered the use of ROTERs.
Notwithstanding the prohibition on the use of ROTERs to assess the performance of individual
ROs or group managers, there are specific areas in which revenue and collection statistics may

10
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
11
   Internal Revenue Manual 1.5.2.2(7) (May 8, 2012).

                                                                                                               Page 7
                                       Field Collection Could Work Cases
                                        With Better Collection Potential



be considered in managing the program. IRS procedures do allow the use of collection statistics
to measure the performance of its workload selection criteria. Specifically, the Internal Revenue
Manual12 and Treasury Regulations13 allow that ROTERs may be used for purposes such as
forecasting, financial planning, resource management, and the formulation of case selection
criteria. These important records may be incorporated in the field workload selection system.
This type of tracking would help the Collection function make the best use of its limited
resources and ensure that queue cases with collection potential are assigned to the field.
Collection function management has established several performance measures associated with
field casework. However, the Collection function had not established goals for all of the
measures. TIGTA previously reported14 that not all collection performance measures were tied
to the IRS’s strategic goals, and few included quantifiable targets. Specifically, just nine of
68 collection performance measures have targets, and none of them relate to revenue collected.
Goals were established for measures related to closing cases, such as the number of taxpayer
closures and the number of offers in compromise closures as well as the cycle time for closing
offers in compromise cases. While these measures provide some useful information, none
measure efficiency or productivity associated with case selection criteria. Instead, the
quantitative measures focus primarily on procedural compliance and closing cases out of active
inventory.
Because the performance measures and goals do not specifically define productivity or expected
outcomes for case selection criteria, employees may not have clear direction about expectations.
We interviewed a judgmental sample15 of eight group managers and eight ROs from
two territories. While we did not interview a representative sample of ROs and group managers,
we obtained some personal perspective on the case assignment process from those responsible
for assigning and working cases in those territories. The ROs and group managers we
interviewed had an inconsistent understanding of collection goals for case resolution and had
different interpretations about what was considered a successful (productive) case closure.
        Seven of the 16 respondents indicated that the productivity of a case is measured by the
         ability to take appropriate actions for case resolution in a timely manner.
        Five of the 16 respondents indicated that the productivity of a case is measured by the
         amount of dollars collected.




12
   Internal Revenue Manual 1.5.2.3.2 (May 8, 2012).
13
   26 C.F.R. § 801.6, Balanced System for Measuring Organizational and Employee Performance Within the IRS,
Business Results Measures (2012).
14
   TIGTA, Ref. No. 2013-30-028, Improvements Are Needed to Ensure That Performance Measures Are Balanced
and Adequately Assess the Effectiveness of the Collection Program (Mar. 2013).
15
   A judgmental sample is a nonstatistical sample, the results of which cannot be projected to the population.

                                                                                                        Page 8
                                  Field Collection Could Work Cases
                                   With Better Collection Potential



      Four of the 16 respondents included both timely actions and dollars collected as
       productivity indicators.
Several ROs interviewed advised us that closing a case for which all case actions complied with
procedures was considered a productive case, regardless of the outcome (full paid, abatement of
the balance due, CNC, installment agreement, or offer in compromise). A few of the ROs
advised us that transferring a case from their inventory to the queue or to another RO was
considered a successful case resolution even though taxpayers may not have made any payments
towards their delinquent liabilities.
Although managers interviewed were inconsistent about how they interpreted desired outcomes
in working cases, six of them believed a productive case is a case for which proper steps were
taken to appropriately close the case, without consideration to revenue collected. This view is
important in evaluating casework; however, in selecting cases, other factors should be considered
because measuring compliance with case closure procedures does not provide feedback on the
case selection criteria.
The collection program can operate more effectively when management sets clear objectives and
methods for improving its case selection criteria to achieve improved outcomes, such as
improving taxpayer compliance and collecting delinquent taxes.

The ENTITY system does not provide management with feedback on workload
selection criteria
Although workload selection procedures instruct field group managers to assign cases from the
pool of available cases within the ENTITY system, group managers maintain flexibility to assign
from any available case within the system. For example, a high-risk complex case would not
likely be assigned to an inexperienced RO because it may be scored as a higher-graded case.
Through our interviews with the eight group managers, we learned that some managers were
supplementing the workload selection system with their experience by identifying cases for
which the taxpayer has the ability to pay. For example, some group managers sometimes
skipped the ENTITY system’s range of high-risk cases because they were often older cases with
very low collection potential. Four of the eight interviewees indicated that cases with more
recent tax liabilities were more productive cases. However, they advised us that a significant
percentage of the cases assigned to the field were not new, at times indicating this was because
the cases were first assigned to the ACS. In addition, managers avoided assigning cases with
impending Collection Statute Expiration Dates because if they expire when assigned to an RO, it
creates an administrative burden for both the group manager and the RO.
Although the ENTITY system determines the risk level for cases and prioritizes cases for
inventory assignment, it does not allow management to determine whether the high-priority
cases were ever assigned to be worked or the results of the case closures. Collection function
management told us that the ENTITY system is not a historical database, so any historical record

                                                                                          Page 9
                                        Field Collection Could Work Cases
                                         With Better Collection Potential



of cases, closures, and time charges would not be a complete and accurate record. Neither the
ICS nor the ENTITY system is able to determine or accurately recreate inventory for a point in
the past because each record is a snapshot of that case in real time. While the ENTITY system
accurately captures time charges and other current information in the End of Month Reports for
Field Collection, it does not maintain any historical records. Also, the dollars collected amounts
only account for dollars collected by the ROs and processed through the ICS and does not
include payments sent directly to an IRS campus.
Although the ENTITY system has the capability to provide information on case closures, such as
dollars collected at the group levels, management does not use it to evaluate the case selection
criteria. Such information could be beneficial when determining the types of cases that result in
the most effective use of resources. For example, group managers who routinely skip cases
identified in the range of next-best cases in the ENTITY system may be identifying and
assigning more productive cases, and these factors, if identified, could be built into the system.
We obtained an extract of closed case data16 from the ENTITY system for the Dallas and
Manhattan Territories. Our analysis showed that field revenue collected was attributed to a small
percentage of cases. Of the 3,596 cases in these two territories, just 858 (24 percent) involved
collecting revenue. More specifically, 57 percent of the dollars collected were attributable to
only 1 percent of the total cases. For this 1 percent of cases, ROs spent approximately
1,000 hours in total and collected over $15,000 per hour. In contrast, for the remaining
99 percent of the cases, ROs spent over 33,000 hours in total and collected $349 per hour.
Further analysis showed that cases that took more time to close did not necessarily result in more
revenue collected. In contrast, the cases that took less time to close resulted in significantly more
revenue.17 Specifically, ROs spent on average 12.6 hours working a CNC case, compared with
8.8 hours for all other closures. These results are consistent with group managers’ perception
that high-risk cases identified by the ENTITY system do not always account for collection
potential. By using the ENTITY system to perform these types of analyses, the Collection
Policy function could identify characteristics of productive cases that could be included in case
selection criteria to improve the overall productivity and revenue collection across all of the
Collection Field function groups.

The ENTITY system does not consider all indicators of a taxpayer’s ability to pay
The Collection Policy function establishes the criteria for the ENTITY risk rules that assign risk
levels to unassigned inventory in the queue. Based on the risk levels, Collection function
management uses the ENTITY system to assign the inventory to the field. Because the field is


16
   For the period September 1 to November 23, 2012. Subject to the ENTITY system data limitations described in
this report. Dollars collected data were taken from the ENTITY field “Dollars Collected and Processed via ICS by
RO assigned case.”
17
   Refers to revenue based on dollars collected divided by hours expended.

                                                                                                        Page 10
                                   Field Collection Could Work Cases
                                    With Better Collection Potential



the most expensive collection operation, it is important that queue cases assigned to the field are
productive. Cases that involve taxpayers who do not have an ability to make payments are
unlikely to result in collecting any revenue and have a greater chance of being closed as CNC.
During FY 2013, 71 percent of the TDA modules closed as CNC (involving over 60 percent of
the $16.1 billion closed as CNC) were closed because the taxpayer did not have the ability to
pay. Even though there may be a future benefit for working such cases, any benefit may not be
quantifiable. Alternatively, ROs who work cases that involve taxpayers with an ability to pay
have a greater chance of collecting revenue. Collecting revenue is a quantifiable benefit and is
consistent with the Collection function’s responsibility to collect taxes and delinquent returns.
Group managers interviewed indicated that the Master File provides valuable information about
a taxpayer’s ability to pay. One indication that a taxpayer may not have the ability to make
payments is the existence of older tax modules on the Master File that have been closed as CNC.
Collection cases are not module-based but instead include all unpaid modules associated with the
taxpayer. For example, a collection case may include a current module (under two years old) for
a taxpayer but also two or three more modules for older periods. These older modules may have
been worked previously and closed as CNC.
Collection function management advised us that the ENTITY risk rules consider multiple
modules as a factor when assigning risk to the cases. Although the risk criteria include the age
of the most current delinquent tax module, risk criteria do not consider the age or status of prior
period delinquencies that may exist for the taxpayer. Modules closed as CNC are automatically
reactivated if the taxpayer’s income exceeds a certain level on a subsequently filed return. This
practice ensures that the IRS reassesses the taxpayer’s ability to pay if the taxpayer’s financial
condition changes. Therefore, if the prior period modules are still CNC, it is likely the financial
condition has not changed and the taxpayer still lacks the ability to pay. However, inventory
assignment criteria do not consider this probability.
Figure 2 shows that 72 percent of taxpayers in the queue at the end of FY 2013 had multiple
delinquencies.




                                                                                            Page 11
                                          Field Collection Could Work Cases
                                           With Better Collection Potential



                         Figure 2: Taxpayers With One or More Modules
                             in the Queue as of the End of FY 2013




                        Source: TIGTA analysis of IRS Collection Activity Report for
                        FY 2013.

Many of the assigned cases that include older delinquencies may not be collected. If these types
of cases represent a historically low probability of collection, there could be an opportunity to
adjust the field workload selection criteria. Although multiple older tax modules can be an
important factor, we believe it should be considered together with the taxpayer’s ability to pay
when determining which cases to assign to ROs, especially given the limited resources within the
field and the growing inventory of delinquent accounts.
In addition, risk criteria includes the dollar value of all the taxpayer’s delinquent modules, the
type of tax, special project or selection codes, and the taxpayer’s last return amount.18 However,
unlike CNC reactivation criteria, the ENTITY risk rules do not consider taxpayer income. Such
information could be useful in determining a taxpayer’s ability to pay, especially when there are
prior period liabilities that have been closed as CNC. When cases are assessed for risk without
consideration of a taxpayer’s financial condition, many cases involving taxpayers with little or
no ability to pay could ultimately be assigned and worked by field personnel.

The ENTITY system does not consider unsuccessful prior attempts to contact or
locate taxpayers
ROs may also close cases as CNC if they are unable to contact or unable to locate the taxpayer.
Group managers interviewed indicated that they sometimes do not assign ENTITY cases with
high risk levels if the case histories show prior unsuccessful attempts by either the ACS or ROs
to collect revenue. However, the ENTITY risk rules do not consider unsuccessful attempts at

18
  The taxpayer’s last return amount reflects the total tax liability amount reflected on the taxpayer’s last tax return,
not the taxpayer’s income.

                                                                                                                Page 12
                                  Field Collection Could Work Cases
                                   With Better Collection Potential



contacting or locating the taxpayer when assigning a risk level. Instead, group managers must
review the taxpayer’s Master File data, which is sometimes voluminous, to decide whether or not
to assign the case. Because this can be a time-consuming process, many cases involving
taxpayers who cannot be contacted or located may be assigned and worked by ROs. During
FY 2013, 19 percent of the TDA modules closed as CNC (involving approximately 32 percent of
the $16.1 billion closed as CNC) were closed because the RO could not contact or locate the
taxpayer. A systemic identification and consideration by the ENTITY risk rules of prior
unsuccessful RO contact attempts could help improve the selection criteria for queue cases.
Previously unsuccessful contact attempts could be weighted with other risk rules, and
consideration should also be given to RO skill level and additional tools that could result in
contacting or locating taxpayers even when prior attempts have been unsuccessful.

Management is studying and revising some of its inventory practices
The Director, Enterprise Collection Strategy, advised us that some efforts are underway to help
improve the Collection function’s workload selection process. For example, Collection function
management is currently reviewing IDS modeling and risk assessments to identify areas of
improvement. Management cautioned that their ability to implement improvements is limited by
the lack of availability of IRS Information Technology organization resources. However,
Collection function management was able to use existing program resources to adjust the full
paid and CNC models in IDS and planned to implement the changes in July 2014. Management
anticipates that the changes to these models will accelerate more high-risk cases with collection
potential to the field.
In addition, a separate effort is under way that focuses on the Collection function’s CNC models.
This effort is intended to determine the benefit of working certain CNC cases. Preliminary
results indicate that cases closed as CNC by either the ACS and/or the field resulted in increased
revenue collected and improved future compliance compared with cases not worked. The study
identified characteristics of CNC cases that may be incorporated into the CNC models to better
predict which cases will become CNC cases and which of those should be worked or shelved.
Collection function management also plans a new initiative, referred to as the Collection
Path 2015 project, for which they are requesting funding. The project’s objective is to increase
the effectiveness and efficiency of Collection function employees by enabling them to better
define, measure, and work the most productive cases. The Collection Path 2015 project intends
to include revenue collected as one of the factors in identifying the most productive cases.
While these initiatives could provide benefits, we believe further action is warranted. Case
selection practices need to be reevaluated and adjustments made to identify more productive
cases, including better identification of taxpayers with the ability to pay and taxpayers who can
be contacted and located. Field personnel time could be better spent on productive cases that
result in collecting revenue, which would help to reduce the Tax Gap and ensure a better use of
collection resources.

                                                                                           Page 13
                                   Field Collection Could Work Cases
                                    With Better Collection Potential



Recommendations
The Director, Enterprise Collection Strategy, SB/SE Division, should:
Recommendation 1: Reexamine the field workload selection criteria and strategy to
determine whether it ensures that the field prioritizes collecting revenue as well as makes the
best use of its limited resources. The strategy should include:
      A broader definition of the attributes of productive collection cases, beyond high-risk
       attributes, such as the taxpayer’s ability to pay, the age of the case, and the likelihood of
       locating and contacting the taxpayer.
      Tracking, monitoring, and measuring the productivity of the cases selected for
       assignment.
       Management’s Response: IRS management agreed with this recommendation.
       Specifically, management will review their strategy for employing Collection field
       resources as part of the work on a new concept of operations for the IRS Collection
       program and the implementation of the key operational theories and techniques
       supporting their Collection vision.
       Office of Audit Comment: The IRS’s corrective action is not specific on the point of
       improving its case selection criteria. This will need to be a key component of its new
       concept of operations to address the intent of our recommendation.
Recommendation 2: Coordinate with the Director, Field Collection, SB/SE Division, to
provide training to ensure that all field personnel are fully aware of this strategy.
       Management’s Response: IRS management agreed with this recommendation.
       Specifically, management will provide training on their new concept of operations,
       including a discussion of the strategy for employing field resources, in future continuing
       professional education for all Collection employees.
Recommendation 3: Establish a method to measure the effectiveness of the field case
selection criteria.
       Management’s Response: IRS management agreed with this recommendation.
       Specifically, management will review the methods for measuring the effectiveness of the
       manner in which Collection resources are utilized as part of the work on a new concept of
       operations for the IRS Collection program.




                                                                                             Page 14
                                         Field Collection Could Work Cases
                                          With Better Collection Potential



Many Cases Closed by Field Collection Were First Routed and Aged
in the Automated Collection System or the Queue
The IDS is designed to direct delinquent cases to the point in the collection process from which
they can be processed optimally by routing cases to the ACS, the queue, or directly to the field.
Many cases that are closed without being resolved by the ACS are then routed to the queue or the
field. Even though the IDS routed some cases from the notice stream directly to the field, the
majority of the cases were first issued to the ACS. From FYs 2008 through 2013, IRS collection
reports show that 66 to 75 percent of all TDAs were initially issued to the ACS.
We selected a random statistical sample of 73 field cases closed as CNC and a random statistical
sample19 of 73 field cases closed as full paid or with an installment agreement.20 Each sample
was selected from the population of field cases ranked as high-risk by the queue prioritization
criteria and closed during the 12-month period ending June 18, 2011.
Although all 146 cases were eventually closed by the field, the IDS determined that nearly half
(70) of them could be processed optimally in the ACS. However, the taxpayer was not brought
into full compliance within the ACS, and the cases either entered the queue prior to assignment
in the field or were transferred directly to the field.
Specifically, the IDS initially routed 34 (47 percent) of the 73 CNC cases and 36 (49 percent) of
the 73 revenue generating cases to the ACS. Eventually, 97 percent (68 of 70 originally assigned
to ACS) of these cases were either routed from the ACS to the field or from the ACS to the
queue and then to the field. Figures 3 and 4 show the average amount of time the sampled cases
spent in each inventory before they were eventually closed by the field.




19
   Both samples used a confidence level of 95 percent with an expected error rate of 5 percent and a precision of
± 5 percent.
20
   The sample of cases closed as CNC was taken from a population of 55,450 cases. The sample of full paid or
installment agreement cases was taken from a population of 37,281 cases.

                                                                                                            Page 15
                                     Field Collection Could Work Cases
                                      With Better Collection Potential



                    Figure 3: Analysis of Cases Assigned to the ACS
                        and Then to the Queue Prior to the Field




            Source: TIGTA analysis of sampled cases closed by the field.



                  Figure 4: Analysis of Cases Assigned to the Queue
                         and Then to the ACS Prior to the Field




            Source: TIGTA analysis of sampled cases closed by the field.

CNC cases closed by the field spent more time within the ACS and the queue prior to assignment
in the field compared to the cases closed as full paid or with an installment agreement. Overall,
cases routed to the field from the ACS are older cases based on the average time cases remain in
the ACS. Figure 5 shows that, on average, cases spend more time in the ACS than in the field.




                                                                                         Page 16
                                            Field Collection Could Work Cases
                                             With Better Collection Potential



                                    Figure 5: Comparison of the Time
                                   TDAs Spent in the Field and the ACS




                    Source: TIGTA analysis of IRS Collection Activity Reports.

As of the end of FY 2013, 2.6 million (33 percent) of the TDA modules in the ACS inventory
had been there more than 16 months.21 An additional 1.2 million TDA modules (15 percent) had
been in the ACS inventory between 10 and 15 months. Based on our case reviews, many of
these cases will eventually be worked by the field regardless of the amount of time spent in the
ACS. The longer a case remains in the ACS, the more a taxpayer’s financial situation could
change and collectability could decrease. This figure does not account for the age of the cases
prior to being routed to the ACS.
In addition, cases routed to the queue before or after the ACS increase the age of the cases. Over
half of the cases in the queue waiting to be assigned to the field have been idle in the queue for
over 10 consecutive months, not including the time spent prior to being routed to the queue.
The length of time that modules are in the ACS and the queue contrasts with the time that they
spent in the field. Of the 886,000 TDA modules in the field at the end of FY 2013, only 219,000
(25 percent) had been there for 10 months or more. Sixty-two percent have been in the field for
less than six months. This figure does not account for the age of the cases prior to being routed
to the field.
IRS data and case review results indicate that many TDA cases are assigned to the ACS initially,
but ACS employees are not resolving the cases. Per ACS business rules, cases can remain
inactive in the ACS for up to two years and 90 days before being routed to the queue. These
unresolved cases may then be in the queue for a significant period of time prior to assignment to
the field. For example, cases closed as CNC may have spent more than a year in the ACS and/or
the queue prior to field assignment; this is in addition to the time spent in the notice stream prior


21
     Sixteen months is the criterion the IRS uses to track the age of cases in the ACS inventory.

                                                                                                    Page 17
                                          Field Collection Could Work Cases
                                           With Better Collection Potential



to ACS assignment. IRS studies have shown that the likelihood of collection diminishes
considerably as cases become older. For example, the IRS Office of Research conducted a
study22 and concluded that as more time elapses before a taxpayer makes at least one payment, it
becomes less likely that the taxpayer will do so at any subsequent time. Thus, the collection
potential for these cases diminishes as they age in the ACS and the queue.
Management Action: Collection function management advised us that they have a Unified Work
Request pending that may allow them to identify potentially unproductive field cases that are
currently in the queue and were first routed through the ACS. Once identified, management will
work to limit the assignment of such cases to the field in the future.

Recommendation
Recommendation 4: The Director, Enterprise Collection Strategy, SB/SE Division, should
conduct a study of the cases routed to the ACS to determine whether there are certain types of
cases that the IRS should discontinue routing to the ACS and instead route directly to the queue
or the field.
           Management’s Response: IRS management agreed with this recommendation.
           Specifically, in connection with the work on a concept of operations for the new
           Collection organization, management will review the ACS processes to determine if
           expanding the authority of ACS employees will yield better results and optimize the use
           of these resources.




22
     U.S. Department of the Treasury, IRS – The IRS Research Bulletin, Publication 1500 (Rev. 11-99).

                                                                                                        Page 18
                                            Field Collection Could Work Cases
                                             With Better Collection Potential



                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS’s workload identification, selection, and
assignment practices are ensuring that the cases with the greatest collection potential are worked
in the Collection Field function.1
I.         Evaluated IRS policies, procedures, and goals pertaining to IRS collection case
           assignment criteria.
           A. Reviewed relevant policies, procedures, and criteria related to the movement of
              collection inventory through IRS collection systems and in assignment to collection
              operations employees.
                1. Through the IDS.
                2. From IDS to collection operations.
                3. Within the queue.
                4. During assignment by group managers to ROs.
                5. In the course of shelving low-priority cases from the queue.
           B. Reviewed methods, criteria, and goals used to monitor and evaluate collection case
              selection and inventory delivery processes, including the queue and the process of
              shelving low-priority cases. We also identified and reviewed any internal or external
              reviews performed on collection case selection and inventory delivery processes,
              including the queue and the process of shelving low-priority cases.
           C. We interviewed a judgmental sample2 of eight group managers and eight ROs from
              two Collection territories (Dallas and Manhattan Territories) with regards to
              inventory workflow policies, procedures, and initial case impressions upon
              assignment. A judgmental sample was used due to time and travel cost
              considerations.
                1. Interviewed group managers and identified any assignment prioritization (such as
                   focusing on industries specific to their area), views on case prioritization policies
                   and procedures, and trends or high-risk areas noted with regards to inventory
                   workflow.


1
    See Appendix V for a glossary of terms.
2
    A judgmental sample is a nonstatistical sample, the results of which cannot be projected to the population.

                                                                                                              Page 19
                                        Field Collection Could Work Cases
                                         With Better Collection Potential



             2. Interviewed ROs for views on case prioritization, impressions of cases upon
                assignment, and any trends or high-risk areas noted with regards to inventory
                workflow.
II.     Evaluated field inventory in conjunction with collection inventory workflow criteria and
        determined whether field resources are being utilized in the most efficient and effective
        manner possible.
        A. Identified a population of field cases closed between June 2010 and June 2011,
           profiling case characteristics for items such as predicted case dispositions, actual
           dispositions, risk-level prioritization, area assignment, or case grade. We also
           stratified the population of closed cases based upon distinguishing characteristics
           such as whether or not they produced revenue.
        B. Selected a statistically valid random sample of 73 taxpayers from a universe of
           55,450 taxpayers who had a module closed as CNC between June 26, 2010 (cycle
           201025), and June 18, 2011 (cycle 201124).3 We took a second statistically valid
           random sample of 73 taxpayers from a universe4 of 37,281 taxpayers who had a
           module closed as full paid or an installment agreement between June 26, 2010 (cycle
           201025), and June 18, 2011 (cycle 201124). We analyzed the following
           characteristics: predictive codes, grade levels (of cases), disposition, collection status
           codes (full paid, installment agreement, etc.), and risk levels.
        C. Analyzed differences in collection rates between the field and the ACS.
III.    Profiled the current collection cases in the queue.
        A. Used IRS Collection Activity Reports and IRS analysts with access to the ENTITY
           system to identify the population of cases in the queue.
        B. Used IRS Collection Activity Reports to identify details of and performed profiling of
           the queue. Profiling included analysis of issuances, dispositions, and transfers in and
           out as well as dollar value. We received queue and field ENTITY information, for
           cases in inventory between October 2010 and December 2012, with which to analyze
           case risk. Monthly text files were provided and had to be entered and analyzed to
           assess the number of cases by risk level in the queue and any related trends.
        C. Used IRS Collection Activity Reports and ENTITY reports to profile the queue. We
           profiled the cases in the queue by type of taxpayer, dollars per module, dollars per



3
  Both samples used a confidence level of 95 percent with an expected error rate of 5 percent and a precision of
± 5 percent.
4
  These two universes of taxpayers are not necessarily mutually exclusive as a taxpayer could fully pay one module,
but not have sufficient resources to fully pay a subsequent debt.

                                                                                                          Page 20
                                       Field Collection Could Work Cases
                                        With Better Collection Potential



            taxpayer, modules per taxpayer, age of delinquency, and risk and prioritization of
            queue cases.
IV.     Profiled low-priority cases that have been shelved and are not actively being worked.
        A. Used IRS Collection Activity Reports to profile the shelved cases by type of taxpayer,
           dollars per module, dollars per taxpayer, modules per taxpayer, age of
           noncompliance, and length of time being shelved.
        B. Used the IRS Collection Activity Reports to analyze the current trends in shelved
           cases. We reviewed by type of taxpayer and dollar value of shelved modules,
           summarized to relate increasing number of modules in this status, and compared to
           data identified in our queue analysis.
V.      Established the validity of the electronic data obtained to accomplish the previous
        subobjectives. We reconciled specific case information from our sample of closed cases
        with Master File data via the Integrated Data Retrieval System. We determined that the
        data used in our review was sufficiently reliable to perform our audit analyses.
VI.     Obtained and analyzed ENTITY data of cases closed between September 1 and
        November 23, 2012, for the Dallas and Manhattan Territories.
        A. Requested from Collection Analytics, Automation, Inventory Selection, and Delivery
           personnel, an extract from the ENTITY system. We received an ENTITY system
           extract involving closed cases for the period September 1, 2012, to November 23,
           2012. The extract included a total of 3,596 closed cases from two territories. The
           extract included 2,260 cases from Territory 2501 and 1,336 cases from Territory
           2103. The closed cases from Territory 2501 included those cases selected and
           worked by group managers and ROs from the Dallas, Texas, area, whom we
           interviewed as part of our audit. The closed cases from Territory 2103 included
           those cases selected and worked by group managers and ROs from the New York,
           New York, area, whom we interviewed as part of our audit.
        B. Analyzed the closed cases by focusing on risk levels, dispositions, hours worked, and
           dollars collected.5
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following


5
 Dollars collected data taken from the ENTITY field “Dollars Collected and Processed via ICS by RO assigned
case.”

                                                                                                      Page 21
                                  Field Collection Could Work Cases
                                   With Better Collection Potential



internal controls were relevant to our audit objective: the SB/SE Division policies, procedures,
and practices for identifying, selecting, assigning, monitoring, and measuring the productivity of
collection cases to be worked by group managers and ROs in the field. We evaluated these
controls by interviewing IRS management and field employees as well as evaluating closed case
databases for actions and results to determine the productivity of the Collection Field function’s
workload selection criteria.




                                                                                          Page 22
                                Field Collection Could Work Cases
                                 With Better Collection Potential



                                                                            Appendix II

                Major Contributors to This Report

Nancy Nakamura, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Timothy F. Greiner, Audit Manager
Richard Viscusi, Lead Auditor
Curtis J. Kirschner, Senior Auditor
Doris Cervantes, Senior Auditor




                                                                                    Page 23
                              Field Collection Could Work Cases
                               With Better Collection Potential



                                                                  Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Office of Research, Analysis, and Statistics RAS
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                        Page 24
                                            Field Collection Could Work Cases
                                             With Better Collection Potential



                                                                                               Appendix IV

              Analysis of the Collection Queue Inventory

The Collection function maintains an inventory of unassigned Taxpayer Delinquency
Investigations (TDI)1 and TDAs in the queue. The queue inventory comes from several sources.
Most of the queue inventory is comprised of cases that had been assigned to ACS personnel and
were not fully resolved or cases that bypass the ACS and go directly to the queue when the
delinquency was not resolved by the routine set of notices mailed to the taxpayer. As of the end
of FY 2013, the queue inventory included:
          2.6 million TDI tax modules (tax periods) involving 837,207 entities2 (taxpayers).
          3.0 million TDA tax modules involving 848,241 entities with balance due amounts
           totaling $49.9 billion.
Delinquent tax returns
The number of queue TDIs (both modules and entities) at the end of FY 2013 decreased
compared to the end of FY 2012. Figure 1 shows the trend of this data over the past six years.
                                      Figure 1: TDIs in the Queue at
                                    the End of FYs 2008 Through 2013




                 Source: TIGTA analysis of IRS Collection Activity Reports for FYs 2008 through 2013.

1
    See Appendix V for a glossary of terms.
2
    Because the returns were not filed, there are no dollar values associated with TDIs.

                                                                                                        Page 25
                                    Field Collection Could Work Cases
                                     With Better Collection Potential



Delinquent accounts
The number of TDA modules, entities, and dollars also decreased during the same time period.
Figure 2 shows the trend of this data over the past six years.
       Figure 2: TDA Entities, Modules (in millions), and Dollars (in billions)
                 in the Queue at the End of FYs 2008 Through 2013




           Source: TIGTA analysis of IRS Collection Activity Reports for FYs 2008 through 2013.

Since FY 2008, the dollar value of the TDA modules in the queue increased by 13 percent, to
$49.9 billion. During the same period, the number of TDA modules in the queue decreased by
9 percent due to a decrease of 22 percent from FY 2012 to FY 2013. The decrease from
FY 2012 to FY 2013 coincides with an increase of TDA modules in the ACS of 19 percent
during the same period and the shelving of nearly 1.2 million TDA modules (with a dollar value
of $10.8 billion) from the queue in FY 2013. The number of TDA modules and associated
dollar value shelved from the queue during FY 2013 are increases of 78 percent and 82 percent,
respectively, from the 667,000 modules worth more than $5.9 billion shelved in FY 2012.
Figure 3 shows the number of modules with balances of $100,000 or more increased by
55 percent during this period. Modules with delinquent balances of $100,000 or more are
considered high risk.




                                                                                                  Page 26
                                         Field Collection Could Work Cases
                                          With Better Collection Potential



                     Figure 3: Queue Inventory TDA Dollar Amounts
                Greater Than $100,000 at the End of FYs 2008 Through 2013




            Source: TIGTA analysis of IRS Collection Activity Reports for FYs 2008 through 2013.

Millions of queue cases are shelved
Although the queue inventory includes a substantial number of TDA modules, its inventory at
the end of each fiscal year does not include millions of TDA modules shelved (removed from
inventory and placed in uncollectible status) during the last five years. Queue cases are
reassessed for risk and priority on a weekly basis. TDIs and TDAs that are not likely to be
assigned because of low risk levels and resource constraints are shelved. Specifically, after
52 consecutive weeks in the queue without assignment, a case is shelved. Once a case is
shelved, it is no longer reassessed for risk or priority.3 Figures 4 and 5 show the number and
dollar value, respectively, of TDAs and TDIs shelved from the Collection function’s inventory4
over the past six years.




3
  Shelved cases may be reactivated in certain circumstances, such as when additional liabilities are incurred by the
taxpayer that increase the risk level.
4
  TDAs and TDIs in the Compliance Services Campus Operations, the ACS, the field, and the queue inventories.

                                                                                                             Page 27
                                    Field Collection Could Work Cases
                                     With Better Collection Potential



                      Figure 4: Number of TDAs and TDIs Shelved
                             During FYs 2008 Through 2013




           Source: TIGTA analysis of IRS Collection Activity Reports for FYs 2008 through 2013.



                          Figure 5: Dollar Value of Shelved TDAs
                              During FYs 2008 Through 2013




           Source: TIGTA analysis of IRS Collection Activity Reports for FYs 2008 through 2013.

From FYs 2008 through 2013, the IRS shelved 5.7 million TDA tax modules with balance due
amounts totaling $36.8 billion. Analysis of TDA modules in the collection inventory showed
that the number of modules in delinquent status increased from 9.2 million modules in FY 2008

                                                                                                  Page 28
                                       Field Collection Could Work Cases
                                        With Better Collection Potential



to 11.7 million modules in FY 2013, an increase of 27 percent. In addition, the IRS shelved
12.0 million TDI modules during the same time. Most of the delinquent liabilities shelved will
never be collected.

The queue inventory is getting older
As the number of TDA modules has increased, so has their age.5 This is important because as
inventory ages, the likelihood of collection decreases.6
       TDA modules for tax periods four years old and older increased from 68 percent of the
        queue inventory in FY 2003 to more than 80 percent in FY 2013.
       TDA modules for tax periods two years old or less decreased from 21 percent of
        inventory in FY 2003 to only 10 percent in FY 2013.
TDA modules in the queue for 10 consecutive months or more increased from 47 percent of
TDA queue inventory in FY 2003 (926,000 modules) to nearly 66 percent of inventory in
FY 2009 (2.4 million modules). Due to the large number of shelved modules, the percentage
decreased to 49 percent (1.6 million modules) in FY 2010. However, it has since increased to
59 percent of inventory (1.8 million modules) in FY 2013. Given these trends, more of the
queue inventory will increasingly be at risk of becoming uncollectible.
Time spent in the queue does not include the time modules may have spent in the ACS or in the
notice stream. Specifically, the aging begins over at zero each time a TDA moves between the
ACS, the field, and the queue. As a result, the IRS management information reports used to
identify this data do not track the total length of time a taxpayer has an outstanding delinquency.
ROs that we interviewed indicated that the advanced age of modules coming from the queue had
a direct effect on whether a case would lead to the successful collection of balance due amounts.
Figure 6 shows the inverse relationship between the trend in enforcement revenue7 and the
number of TDA modules in the queue for 10 consecutive months or longer.




5
  Refers to the tax period of the module, not how long it has been in the queue.
6
  TIGTA, Ref. No. 2011-30-112, Reducing the Processing Time Between Balance Due Notices Could Increase
Collections (Sept. 2011).
7
  Enforcement revenue includes any tax, penalty, or interest received from a taxpayer as a result of an IRS
enforcement action (usually an examination or a collection action).

                                                                                                       Page 29
                                    Field Collection Could Work Cases
                                     With Better Collection Potential



                Figure 6: Age of Modules in the Queue Compared With
                   Enforcement Revenue for FYs 2008 Through 2013




     Source: TIGTA analysis of IRS Collection Activity Reports and IRS Compliance Data Warehouse
     information for FYs 2008 through 2013.

Unassigned cases in the queue continue to increase, while assigned cases in the
field continue to decrease
The field does not have the resources to stop the increase of unassigned cases in the queue.
Figure 7 shows that from the beginning of FY 2011 to the end of FY 2012, the number of cases
in the queue rose by over 30 percent, while the number of cases assigned to the field decreased
by 17 percent.




                                                                                                   Page 30
                                    Field Collection Could Work Cases
                                     With Better Collection Potential



                Figure 7: Number of Cases in the Queue and Field and
                   Their Percentage Change for FYs 2011 and 2012




        Source: TIGTA analysis of IRS ENTITY data for FYs 2011 and 2012.

The increase in unassigned queue cases is due to the combination of increasing new inventory
and decreasing resources. These factors have a direct impact on the IRS’s ability to reduce the
Tax Gap and emphasize the need for proper inventory management and the importance of
identifying productive cases to work.




                                                                                         Page 31
                                Field Collection Could Work Cases
                                 With Better Collection Potential



                                                                                Appendix V

                              Glossary of Terms

           Term                                          Definition

Automated Collection          A telephone contact system through which telephone assistors
System                        collect unpaid taxes and secure tax returns from delinquent
                              taxpayers who have not complied with previous notices.
Automated Lien System         A comprehensive database that prints lien notices, stores
                              taxpayer information, and documents all lien activity.
Campus                        The data processing arm of the IRS. The campuses process
                              paper and electronic submissions, correct errors, and forward
                              data to the Computing Centers for analysis and posting to
                              taxpayer accounts.
Collection Activity Reports   A group of reports providing management information to field
                              and National Office Collection officials. The reports reflect
                              activity associated with TDA and TDI issuances and installment
                              agreements including issuances, dispositions, and inventories as
                              well as collection-related payments.
Collection Area Office        A geographic organizational level used by IRS business units
                              and offices to help their specific types of taxpayers understand
                              and comply with tax laws and issues.
Collection Field function     The unit in the Area Offices consisting of ROs who handle
                              face-to-face contacts with taxpayers to collect delinquent
                              accounts or secure unfiled returns.
Collection Statute            The date, established by statute, when the Government’s right to
Expiration Date               pursue collection of a liability expires.
Currently Not Collectible     One reason for removing accounts from active inventory after
                              taking the necessary steps in the collection process. Accounts
                              may be reported currently not collectible for a variety of reasons
                              using the appropriate closing code.
Delinquent Inventory          An Integrated Data Retrieval System extract of all account
Account List                  information for collection inventory.

                                                                                          Page 32
                              Field Collection Could Work Cases
                               With Better Collection Potential




           Term                                         Definition

ENTITY Case                 A current database displaying field and advisory inventory. The
Management System           ENTITY system receives data from the ICS, the Delinquent
                            Inventory Account List, and the Automated Lien System.
Fiscal Year                 Any yearly accounting period, regardless of its relationship to a
                            calendar year. The Federal Government’s fiscal year begins on
                            October 1 and ends on September 30.
Installment Agreement       Arrangement in which a taxpayer agrees to pay his/her tax
                            liability over time.
Integrated Collection       An information management system designed to improve
System                      revenue collections by providing ROs access to the most current
                            taxpayer information, while in the field, using laptop computers
                            for quicker case resolution and improved customer service.
Integrated Data Retrieval   The IRS computer system capable of retrieving or updating
System                      stored information. It works in conjunction with a taxpayer’s
                            account records.
Internal Revenue Manual     The operations manual for employees of the IRS.
Inventory Delivery System   The delivery system for collection case inventory. The IDS uses
                            analytical scoring models and a business rules engine to route
                            cases to the ACS, the queue, or direct field assignment.
Master File                 The IRS database that stores various types of taxpayer account
                            information. This database includes individual, business, and
                            employee plans and exempt organizations data.
Module                      Refers to one specific tax return filed by the taxpayer for one
                            specific tax period (year or quarter) and type of tax.
Offer in Compromise         An agreement between a taxpayer and the Government that
                            settles a tax liability for payment of less than the full amount
                            owed.
Queue                       An automated holding file for unassigned inventory of
                            delinquent cases for which ROs in the field are unable to be
                            immediately assigned for contact due to limited resources.




                                                                                        Page 33
                         Field Collection Could Work Cases
                          With Better Collection Potential




             Term                                 Definition

Revenue Officer        Employees in the field who attempt to contact taxpayers and
                       resolve collection matters that have not been resolved through
                       notices sent by the IRS campuses or the ACS.
Sequestration          Fiscal policy procedure encompassing an automatic form of
                       spending cut equal to the difference between the cap set in the
                       budget resolution and the amount actually appropriated.
Tax Gap                The estimated difference between the amount of tax that
                       taxpayers should pay and the amount that is paid voluntarily and
                       on time.
Tax Period             Refers to each tax return filed by the taxpayer for a specific
                       period (year or quarter) during a calendar year for each type of
                       tax.
Tax Year               A 12-month accounting period for keeping records on income
                       and expenses used as the basis for calculating the annual taxes
                       due. For most individual taxpayers, the tax year is synonymous
                       with the calendar year.
Taxpayer Delinquency   An unfiled tax return(s) for a taxpayer. Only one TDI is issued
Investigation          for each delinquent tax period for a taxpayer.
Taxpayer Delinquent    A balance due account of a taxpayer. One TDA exists for all
Account                delinquent tax periods for a taxpayer.
Territory              Collection function geographic locations across the country,
                       with direct supervision by one of seven Area Office directors. A
                       territory is headed by a second-level manager in the Collection
                       function (territory manager) responsible for supervision of all
                       group managers within the territory.




                                                                                 Page 34
             Field Collection Could Work Cases
              With Better Collection Potential



                                                 Appendix VI

Management’s Response to the Draft Report




                                                      Page 35
Field Collection Could Work Cases
 With Better Collection Potential




                                    Page 36
Field Collection Could Work Cases
 With Better Collection Potential




                                    Page 37
Field Collection Could Work Cases
 With Better Collection Potential




                                    Page 38
Field Collection Could Work Cases
 With Better Collection Potential




                                    Page 39
